0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief of Amici Curiae American Association
of Cosmetology Schools in Support of Petitioners in 201305, Douglas J. Holdings, Inc., et al., v. Joy Eberline,
et al., was sent via Two Day Service to the U.S.
Supreme Court, and via Two Day and e-mail service to
the following parties listed below, this 19th day of April
2021:
Matthew T. Nelson
Warner Norcross + Judd LLP
150 Ottawa Avenue NW
Suite 1500
Grand Rapids, MI 49503
(616) 752-2539
nmelson@wnj.com
Counsel for Petitioners
Kathryn Bruner James
Goodman Hurwitz & James, P.C.
1394 Jefferson Ave.
Detroit, MI 48207
313-567-6170
kjames@goodmanhurwitz.com
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Robert M. Palumbos
Counsel of Record
Duane Morris LLP
30 South 17th Street
Philadelphia, PA 19103-4196
(215) 979-1111
rmpalumbos@duanemorris.com
Edward Cramp
Bryce Young
Duane Morris LLP
7 50 B Street,
Suite 2900
San Diego, CA 92101-4681
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 19, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

C..~

I4,

Jo J/

&U. /J~

Notary Public
[seal]

JOHN 0. GALLAGHER
t~utary Public, State of Ohio

~/ Commission Expires
Feoruary 14, 2023

